WAIVER

SUPREME COURT OF THE UNITED STATES

No. |21-5056

Arthur Vincent Autozone
(Petitioner) Vv. (Respondent)

1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Tam filing this waiver on behalf of all respondents.

oO Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
Tam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: A eae \ OLware
Date: 7/21/21

(Type or print) Name |George J. Oliver

© mw. O Ms. O mrs. O Miss
Firm Fox Rothschild LLP
Address P.O. Box 27525
City & State Raleigh Zip \27611
Phone 919-755-8700 Email |jerryoliver@foxrothschild.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Arthur Vincent, pro se
cc: |5804B Chason Ridge Dr.
Fayetteville, NC 28314
